Audit Report




OIG-09-024
GENERAL MANAGEMENT: Treasury Should Reactivate State-
Held Federal Unclaimed Assets Recovery Program (Corrective
Action Verification on OIG-02-105)
January 7, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Background ........................................................................ …………………… 2

  Objective, Scope, and Methodology....................................... …………………… 3

  Status of Program and Corrective Actions ....................................................... 3

  Conclusion and Recommendation ................................................................... 5

Appendices

  Appendix 1:        Schedule of Monetary Benefits................................................ 7
  Appendix 2:        Management Response .......................................................... 8
  Appendix 3:        Report Distribution............................................................... 10

Abbreviations

  DCFO           Deputy Chief Financial Officer
  DO             Departmental Offices
  FMS            Financial Management Service
  JAMES          Joint Audit Management Enterprise System
  OIG            Office of Inspector General
  PCA            planned corrective action
  TD             Treasury Directive




                     Treasury Should Reactivate State-Held Federal Unclaimed Assets                 Page i
                     Recovery Efforts (OIG-09-024)
         This page intentionally left blank.




Treasury Should Reactivate State-Held Federal Unclaimed Assets   Page ii
Recovery Efforts (OIG-09-024)
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                      January 7, 2009

                      Peter B. McCarthy
                      Assistant Secretary for Management
                        and Chief Financial Officer

                      This report presents the results of our review of corrective actions
                      taken by the Department of the Treasury’s Departmental Offices
                      (DO) in response to our July 2002 report on DO’s state-held federal
                      unclaimed assets recovery program.1 Federal unclaimed assets refer
                      to federally owned monetary assets that include savings and
                      checking accounts, money orders, dividends, and royalties.

                      In our July 2002 report, we recommended that Treasury
                      (1) centralize recovery responsibilities within Treasury, (2) inform
                      states that Treasury will be the central liaison and recoverer,
                      (3) perform cost analysis between in-house recovery and
                      contracting with finders, (4) provide financial assistance to states
                      for their recovery efforts, (5) provide states with federal agency
                      names and their variations, (6) work with states to identify
                      nonlisted assets, (7) reevaluate the cumbersome claiming process,
                      (8) search assets in city and county levels, and (9) review state
                      internal controls on unclaimed assets. At the time of our report, the
                      program was managed by the Deputy Chief Financial Officer’s
                      (DCFO) office.

                      Between August 2002 and September 2004, DO closed the
                      recommendations in Treasury’s Joint Audit Management Enterprise
                      System (JAMES). The unclaimed federal assets recovery program
                      has been inactive since February 2005, after a DCFO employee
                      who worked the program on a part-time basis left Treasury. We are

1
 Federal Efforts to Recover Unclaimed State-Held Assets Face Many Challenges and Obstacles,
OIG-02-105 (July 18, 2002).

                      Treasury Should Reactivate State-Held Federal Unclaimed Assets          Page 1
                      Recovery Efforts (OIG-09-024)
                        recommending in this report that Treasury reactivate the program
                        with appropriate policies, procedures, and controls.


Background
                        According to Office of Management and Budget Circular A-50,
                        audit follow-up is an integral part of good management and a
                        shared responsibility of management and auditors.2 Each agency
                        should establish an audit follow-up system to assure the prompt
                        and proper resolution and implementation of audit
                        recommendations. Treasury requires bureau staff to ensure that
                        (1) audit recommendations are resolved on a timely basis;
                        (2) resolved audit recommendations (i.e., those agreed to by
                        bureau management) are promptly acted upon and that progress
                        with respect to proposed and ongoing corrective actions is
                        adequately monitored; and (3) statistical information and other data
                        are appropriately reported pursuant to all statutory and regulatory
                        requirements.3

                        The status of audit recommendations is tracked in JAMES, an
                        interactive system accessible to both the Treasury Office of
                        Inspector General (OIG) and bureau management. JAMES contains
                        tracking information on audit reports from their issuance through
                        completion of all actions related to the findings and
                        recommendations.

                        The Assistant Secretary for Management and Chief Financial
                        Officer is responsible for ensuring the proper resolution of audit
                        findings and recommendations and the implementation of
                        corrective actions. The DCFO is responsible for monitoring the
                        status of resolution of audit findings and recommendations, as well
                        as the implementation of corrective actions of both Treasury
                        bureaus and DO.

                        The DCFO’s office conducted a pilot program to recover state-held
                        federal assets from June 2001 to June 2003. Treasury’s Financial
                        Management Service (FMS) had previously managed the recovery
                        efforts.


2
    Office of Management and Budget Circular A-50, revised, “Audit Follow-up” (Sep. 29, 1982).
3
    TD 40-03, “Treasury Audit Resolution, Follow-Up, and Closure” (Feb. 2, 2005).

                        Treasury Should Reactivate State-Held Federal Unclaimed Assets           Page 2
                        Recovery Efforts (OIG-09-024)
Objective, Scope, and Methodology
             The objective of this corrective action verification was to determine
             whether the Department had taken corrective actions responsive to
             our recommendations for improving efforts to recover state-held
             federal unclaimed assets. This corrective action verification
             addresses the planned corrective actions (PCA) associated with the
             nine recommendations in our July 2002 report.

             We met with staff from the DCFO’s office to gain an understanding
             of how the office monitors recommendations in JAMES. We
             queried JAMES to review the status of the recommendations. We
             interviewed officials and staff and obtained supporting
             documents from the Office of Accounting and Internal Control
             on the status of efforts to recover state-held federal
             unclaimed assets.

             We conducted our review during April 2008 and May 2008 at DO
             in Washington, D.C., in accordance with generally accepted
             government auditing standards. Those standards require that we
             plan and perform the audit to obtain sufficient, appropriate
             evidence to provide a reasonable basis for our findings and
             conclusions based on our audit objectives. We believe that the
             evidence obtained provides a reasonable basis for our finding and
             conclusion based on our audit objectives.

Status of Program and Corrective Actions
             The unclaimed federal assets recovery program has been mostly
             inactive since February 2005, after a DCFO employee who worked
             the program on a part-time basis left Treasury. Management told us
             that due to resource constraints, they decided to work only those
             claims that arrived unsolicited from states or the Internal Revenue
             Service, and the DCFO’s office performed no further outreach to
             states. From October 2005 through November 2007, one DCFO’s
             office employee, as an ancillary duty, processed about $1.8 million
             in unsolicited claims.

             Although DO closed all nine recommendations in JAMES by
             September 2004, the recommendations were not adequately
             addressed. For instance, Recommendation 3 called for performing a

             Treasury Should Reactivate State-Held Federal Unclaimed Assets   Page 3
             Recovery Efforts (OIG-09-024)
                       cost analysis to determine an economical way to administer asset
                       recovery duties between in-house administration and contracting
                       with finders. The PCA description for the recommendation in
                       JAMES states that corrective actions, if any, would be developed
                       in conjunction with the results of the pilot program. But, in light of
                       the nature of the recommendation, it should have been addressed
                       independently from or as an addendum to the pilot program.

                       The PCA descriptions in JAMES for Recommendations 4, 5, 8,
                       and 9 also stated that corrective actions, if any, would be linked to
                       the results of the pilot program. Even though the pilot was
                       completed, DO did not follow through on its commitment to
                       develop PCAs linked to the results of the pilot program. While the
                       asset recovery program was essentially abandoned, it has never
                       been formally terminated. So the recommendations should not have
                       been closed.

                       According to the memorandum that reported the pilot results, more
                       than $8 million in federal assets were recovered during the 2-year
                       pilot period.4 From the time the pilot ended through November
                       2007, Treasury recovered approximately $5.2 million. (This amount
                       excludes any funds collected from July 2004 to September 2005
                       because the DCFO’s office provided us with no recovery data for
                       that period.) As discussed earlier, the program recovered $1.8
                       million over a roughly 2-year period with passive management.
                       Based on the pilot program experience, a lot more assets - $8
                       million - were recovered when the program was actively managed.

                        Table: Recoveries of state-held unclaimed federal assets, 1993 to 2007

                                                       June 2001     July 2003                    Oct. 2005
                                          1993 to                                  July 2004 to
                        Period                         to June       to June                      to Nov.
                                          June 2001                                Sept. 2005
                                                       2003          2004                         2007
                        Recoveries                                                 No data
                                          $1.9         $8.0          $3.4                         $1.8
                        (in millions)                                              available
                        Collecting
                                          FMS          DCFO          DCFO          DCFO           DCFO
                        office
                        Source: Office of the DCFO.




4
  During the 8 years prior to the DCFO’s pilot, FMS recovered $1.9 million of state-held unclaimed
federal assets.

                       Treasury Should Reactivate State-Held Federal Unclaimed Assets                Page 4
                       Recovery Efforts (OIG-09-024)
                       The memorandum also stated that the DCFO’s office anticipated
                       recovering a steady stream of assets from states if the program
                       continued, because states were becoming more organized in
                       managing unclaimed assets, and corporate entities and each state’s
                       county court systems were also found to hold federal assets.
                       According to the memorandum, staffing problems presented the
                       major challenge to continuing the program.

                       Estimated Savings Resulting from Reactivating the Program

                       The DCFO’s office recovered $3.5 million in fiscal year 2003 with
                       just one detailee’s efforts. Assuming the same annual recovery for
                       future years,5 Treasury could recover $10.5 million over the next
                       3 years by reactivating the program and pursuing the recovery of
                       assets with the same efforts and resources.


Conclusion and Recommendation
                       We believe that the state-held federal unclaimed assets recovery
                       program was a worthwhile effort that generated revenue for the
                       federal government. Given the positive result of the 2-year pilot
                       and estimated future recovery amounts, the benefits of the
                       program are likely to exceed the costs of running it.

                       Therefore, we recommend that Treasury reactivate the state-held
                       federal unclaimed assets recovery program with appropriate
                       policies, procedures, and controls.

                       Management Response

                       In a written response dated December 10, 2008, the Assistant
                       Secretary for Management and Chief Financial Officer recognized
                       the need to ensure proper oversight of the state-held federal
                       unclaimed assets recovery program, and agreed with our
                       recommendation to reactivate the program. A corrective action
                       plan was also provided to properly execute the program. The
                       response is included as Appendix 2.

5
 We are using the amount recovered in fiscal year 2003 as the basis for our estimate because it is the
most recent annual recovery amount available for a full year in which the program was active.


                       Treasury Should Reactivate State-Held Federal Unclaimed Assets            Page 5
                       Recovery Efforts (OIG-09-024)
OIG Comment

We believe the corrective action plan, if implemented as described,
will address the recommendation.

                                     *****

We would like to extend our appreciation for the cooperation and
courtesies extended to our staff during the review. If you have any
questions, please contact me at (202) 927-5400. The major
contributors to this report were Michael Maloney, Audit Director,
and Myung Han, Program Analyst.




Marla A. Freedman
Assistant Inspector General for Audit




Treasury Should Reactivate State-Held Federal Unclaimed Assets   Page 6
Recovery Efforts (OIG-09-024)
Appendix 1
Schedule of Monetary Benefits




A revenue enhancement is an action recommended in an OIG audit
report that would, if implemented, enhance the General Fund
receipts of the federal government, usually without having any
budgetary impact on any of Treasury's appropriations. The
following potential revenue enhancement will be recorded in
Treasury’s Joint Audit Management Enterprise System. The
amount will also be included in the OIG semiannual report to
Congress.

Recommendation_________                          Revenue Enhancement

Reactivate the state-held                        $10.5 million
federal unclaimed assets
recovery program with
appropriate policies,
procedures, and controls.

The potential revenue enhancement listed above represents the
estimated monetary benefits Treasury will be able to receive over a
3-year period if it reactivates the state-held federal unclaimed asset
recovery program. The estimate is based on the $3.5 million that
the DCFO’s office recovered in fiscal year 2003.




Treasury Should Reactivate State-Held Federal Unclaimed Assets         Page 7
Recovery Efforts (OIG-09-024)
  Appendix 2
  Management Response




The original comments were signed and dated December 10, 2008.




  Treasury Should Reactivate State-Held Federal Unclaimed Assets   Page 8
  Recovery Efforts (OIG-09-024)
Appendix 2
Management Response




Treasury Should Reactivate State-Held Federal Unclaimed Assets   Page 9
Recovery Efforts (OIG-09-024)
Appendix 3
Report Distribution




Department of the Treasury

Deputy Chief Financial Officer
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Office of Management and Budget

OIG Budget Examiner




Treasury Should Reactivate State-Held Federal Unclaimed Assets   Page 10
Recovery Efforts (OIG-09-024)
